Appendix D: Involved Federal Law
86&
86&

20

18 USCS § 924, Part 1 of 3
Copy Citation

Current through Public Law 116-91, approved December 19, 2019.
United States Code Service TITLE 18. CRIMES AND CRIMINAL PROCEDURE (§§ 1 — 6005)
(Chs. 1 — 123) CHAPTER 44. Firearms (§§ 921 — 931)

Part I. Crimes

§ 924. Penalties [Caution: See prospective amendment notes below.]
(a)
(1) Except as otherwise provided in this subsection, subsection (b), (c), (f), or (p) of this section, or in section 929 [18 USCS §
929], whoever—
(A) knowingly makes any false statement or representation with respect to the information required by this chapter [18 USCS §§
921 et seq.] to be kept in the records of a person licensed under this chapter [18 USCS §§ 921 et seq.] or in applying for any
license or exemption or relief from disability under the provisions of this chapter [18 USCS §§ 921 et seq.];
(B) knowingly violates subsection (a)(4), (f), (k), or (q) of section 922 [18 USCS § 922];
(C) knowingly imports or brings into the United States or any possession thereof any firearm or ammunition in violation of
section 922(l) [18 USCS § 922(1)]; or
(D) willfully violates any other provision of this chapter [18 USCS §§ 921 et seq.],
shall be fined under this title, imprisoned not more than five years, or both.
(2) Whoever knowingly violates subsection (a)(6), (d), (g), (h), (i), (j), or (o) of section 922 [18 USCS § 922] shall be fined as
provided in this title, imprisoned not more than 10 years, or both.
(3) Any licensed dealer, licensed importer, licensed manufacturer, or licensed collector who knowingly—
(A) makes any false statement or representation with respect to the information required by the provisions of this chapter [18
USCS §§ 921 et seq.] to be kept in the records of a person licensed under this chapter [18 USCS §§ 921 et seq.], or
(B) violates subsection (m) of section 922 [18 USCS § 922],
shall be fined under this title, imprisoned not more than one year, or both.
(4) Whoever violates section 922(q) [18 USCS § 922(q)] shall be fined under this title, imprisoned for not more than 5 years, or
both. Notwithstanding any other provision of law, the term of imprisonment imposed under this paragraph shall not run
concurrently with any other term of imprisonment imposed under any other provision of law. Except for the authorization of a
term of imprisonment of not more than 5 years made in this paragraph, for the purpose of any other law a violation of section
922(q) [18 USCS § 922(q)] shall be deemed to be a misdemeanor.
(5) Whoever knowingly violates subsection (s) or (t) of section 922 [18 USCS § 922] shall be fined not more than $1,000,
imprisoned for not more than 1 year, or both.
(6)
(A)
(i) A juvenile who violates section 922(x) [18 USCS § 922(x)] shall be fined under this title, imprisoned not more than 1 year, or
both, except that a juvenile described in clause (ii) shall be sentenced to probation on appropriate conditions and shall not be

21

incarcerated unless the juvenile fails to comply with a condition of probation.
(ii) A juvenile is described in this clause if—
(I) the offense of which the juvenile is charged is possession of a handgun or ammunition in violation of section 922(x)(2); and
(II) the juvenile has not been convicted in any court of an offense (including an offense under section 922(x) [18 USCS §
922(x)] or a similar State law, but not including any other offense consisting of conduct that if engaged in by an adult would not
constitute an offense) or adjudicated as a juvenile delinquent for conduct that if engaged in by an adult would constitute an
offense.
(B) A person other than a juvenile who knowingly violates section 922(x) [18 USCS § 922(x)]—
(i) shall be fined under this title, imprisoned not more than 1 year, or both; and
(ii) if the person sold, delivered, or otherwise transferred a handgun or ammunition to a juvenile knowing or having reasonable
cause to know that the juvenile intended to carry or otherwise possess or discharge or otherwise use the handgun or ammunition
in the commission of a crime of violence, shall be fined under this title, imprisoned not more than 10 years, or both.
(7) Whoever knowingly violates section 931 [18 USCS § 931] shall be fined under this title, imprisoned not more than 3 years,
or both.
(b) Whoever, with intent to commit therewith an offense punishable by imprisonment for a term exceeding one year, or with
knowledge or reasonable cause to believe that an offense punishable by imprisonment for a term exceeding one year is to be
committed therewith, ships, transports, or receives a firearm or any ammunition in interstate or foreign commerce shall be fined
under this title, or imprisoned not more than ten years, or both.
(c)
(1)
(A) Except to the extent that a greater minimum sentence is otherwise provided by this subsection or by any other provision of
law, any person who, during and in relation to any crime of violence or drug trafficking crime (including a crime of violence or
drug trafficking crime that provides for an enhanced punishment if committed by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in a court of the United States, uses or carries a firearm, or who, in furtherance
of any such crime, possesses a firearm, shall, in addition to the punishment provided for such crime of violence or drug
trafficking crime—
(i) be sentenced to a term of imprisonment of not less than 5 years;
(ii) if the firearm is brandished, be sentenced to a term of imprisonment of not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a term of imprisonment of not less than 10 years.
(B) If the firearm possessed by a person convicted of a violation of this subsection—
(i) is a short-barreled rifle, short-barreled shotgun, or semiautomatic assault weapon, the person shall be sentenced to a term of
imprisonment of not less than 10 years; or
(ii) is a machinegun or a destructive device, or is equipped with a firearm silencer or firearm muffler, the person shall be
sentenced to a term of imprisonment of not less than 30 years.
(C) In the case of a violation of this subsection that occurs after a prior conviction under this subsection has become final, the
person shall—
(i) be sentenced to a term of imprisonment of not less than 25 years; and
(ii) if the firearm involved is a machinegun or a destructive device, or is equipped with a firearm silencer or firearm muffler, be
sentenced to imprisonment for life.
(D) Notwithstanding any other provision of law—
(i) a court shall not place on probation any person convicted of a violation of this subsection; and

22

(ii) no term of imprisonment imposed on a person under this subsection shall run concurrently with any other term of
imprisonment imposed on the person, including any term of imprisonment imposed for the crime of violence or drug trafficking
crime during which the firearm was used, carried, or possessed.
(2) For purposes of this subsection, the term “drug trafficking crime” means any felony punishable under the Controlled
Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import and Export Act (21 U.S.C. 951 et seq.), or chapter 705
of title 46 [46 USCS §§ 70501 et seq.].
(3) For purposes of this subsection the term “crime of violence” means an offense that is a felony and—
(A) has as an element the use, attempted use, or threatened use of physical force against the person or property of another, or
(B) that by its nature, involves a substantial risk that physical force against the person or property of another may be used in the
course of committing the offense.
(4) For purposes of this subsection, the term “brandish” means, with respect to a firearm, to display all or part of the firearm, or
otherwise make the presence of the firearm known to another person, in order to intimidate that person, regardless of whether the
firearm is directly visible to that person.
(5) Except to the extent that a greater minimum sentence is otherwise provided under this subsection, or by any other provision
of law, any person who, during and in relation to any crime of violence or drug trafficking crime (including a crime of violence
or drug trafficking crime that provides for an enhanced punishment if committed by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in a court of the United States, uses or carries armor piercing ammunition, or
who, in furtherance of any such crime, possesses armor piercing ammunition, shall, in addition to the punishment provided for
such crime of violence or drug trafficking crime or conviction under this section—
(A) be sentenced to a term of imprisonment of not less than 15 years; and
(B) if death results from the use of such ammunition—
(i) if the killing is murder (as defined in section 1111 [18 USCS § 1111]), be punished by death or sentenced to a term of
imprisonment for any term of years or for life; and
(ii) if the killing is manslaughter (as defined in section 1112 [18 USCS § 1112]), be punished as provided in section 1112 [18
USCS § 1112].
(d)
(1) Any firearm or ammunition involved in or used in any knowing violation of subsection (a)(4), (a)(6), (f), (g), (h), (i), (j), or
(k) of section 922 [18 USCS § 922], or knowing importation or bringing into the United States or any possession thereof any
firearm or ammunition in violation of section 922(l) [18 USCS § 922(1)], or knowing violation of section 924 [18 USCS § 924],
or willful violation of any other provision of this chapter [18 USCS §§ 921 et seq.] or any rule or regulation promulgated
thereunder, or any violation of any other criminal law of the United States, or any firearm or ammunition intended to be used in
any offense referred to in paragraph (3) of this subsection, where such intent is demonstrated by clear and convincing evidence,
shall be subject to seizure and forfeiture, and all provisions of the Internal Revenue Code of 1954 [Internal Revenue Code of
1986] [26 USCS §§ 1 et seq.] relating to the seizure, forfeiture, and disposition of firearms, as defined in section 5845(a) of that
Code [26 USCS § 5845(a)], shall, so far as applicable, extend to seizures and forfeitures under the provisions of this chapter [18
USCS §§ 921 et seq.]: Provided, That upon acquittal of the owner or possessor, or dismissal of the charges against him other
than upon motion of the Government prior to trial, or lapse of or court termination of the restraining order to which he is subject,
the seized or relinquished firearms or ammunition shall be returned forthwith to the owner or possessor or to a person delegated
by the owner or possessor unless the return of the firearms or ammunition would place the owner or possessor or his delegate in
violation of law. Any action or proceeding for the forfeiture of firearms or ammunition shall be commenced within one hundred
and twenty days of such seizure.
(2)

23

(A) In any action or proceeding for the return of firearms or ammunition seized under the provisions of this chapter [18 USCS §§
921 et seq.], the court shall allow the prevailing party, other than the United States, a reasonable attorney’s fee, and the United
States shall be liable therefor.
(B) In any other action or proceeding under the provisions of this chapter [18 USCS §§ 921 et seq.], the court, when it finds that
such action was without foundation, or was initiated vexatiously, frivolously, or in bad faith, shall allow the prevailing party,
other than the United States, a reasonable attorney’s fee, and the United States shall be liable therefor.
(C) Only those firearms or quantities of ammunition particularly named and individually identified as involved in or used in any
violation of the provisions of this chapter [18 USCS §§ 921 et seq.] or any rule or regulation issued thereunder, or any other
criminal law of the United States or as intended to be used in any offense referred to in paragraph (3) of this subsection, where
such intent is demonstrated by clear and convincing evidence, shall be subject to seizure, forfeiture, and disposition.
(D) The United States shall be liable for attorneys’ fees under this paragraph only to the extent provided in advance by
appropriation Acts.
(3) The offenses referred to in paragraphs (1) and (2)(C) of this subsection are—
(A) any crime of violence, as that term is defined in section 924(c)(3) of this title [18 USCS § 924(c)(3)] [subsec. (c)(3) of this
section];
(B) any offense punishable under the Controlled Substances Act (21 U.S.C. 801 et seq.) or the Controlled Substances Import and
Export Act (21 U.S.C. 951 et seq.);
(C) any offense described in section 922(a)(1), 922(a)(3), 922(a)(5), or 922(b)(3) of this title [18 USCS § 922(a)(1), 922(a)
(3), 922(a)(5), or 922(b)(3)] where the firearm or ammunition intended to be used in any such offense is involved in a pattern of
activities which includes a violation of any offense described in section 922(a)(1), 922(a)(3), 922(a)(5), or 922(b)(3) of this title
[18 USCS § 922(a)(1), 922(a)(3), 922(a)(5), or 922(b)(3)];
(D) any offense described in section 922(d) of this title [18 USCS § 922(d)] where the firearm or ammunition is intended to be
used in such offense by the transferor of such firearm or ammunition;
(E) any offense described in section 922(i), 922(j), 922(l), 922(n), or 924(b) of this title [18 USCS §
922(i), 922(j), 922(l), 922(n), or 924(b)]; and
(F) any offense which may be prosecuted in a court of the United States which involves the exportation of firearms or
ammunition.
(e)
(1) In the case of a person who violates section 922(g) of this title [18 USCS § 922(g)] and has three previous convictions by any
court referred to in section 922(g)(1) of this title [18 USCS § 922(g)(1)] for a violent felony or a serious drug offense, or both,
committed on occasions different from one another, such person shall be fined under this title and imprisoned not less than
fifteen years, and, notwithstanding any other provision of law, the court shall not suspend the sentence of, or grant a probationary
sentence to, such person with respect to the conviction under section 922(g) [18 USCS § 922(g)].
(2) As used in this subsection—
(A) the term “serious drug offense” means—
(i) an offense under the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§ 70501 et seq.], for which a maximum term of imprisonment of ten
years or more is prescribed by law; or
(ii) an offense under State law, involving manufacturing, distributing, or possessing with intent to manufacture or distribute, a
controlled substance (as defined in section 102 of the Controlled Substances Act (21 U.S.C. 802)), for which a maximum term of
imprisonment of ten years or more is prescribed by law;

24

(B) the term “violent felony” means any crime punishable by imprisonment for a term exceeding one year, or any act of juvenile
delinquency involving the use or carrying of a firearm, knife, or destructive device that would be punishable by imprisonment
for such term if committed by an adult, that—
(i) has as an element the use, attempted use, or threatened use of physical force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or otherwise involves conduct that presents a serious potential risk
of physical injury to another; and
(C) the term “conviction” includes a finding that a person has committed an act of juvenile delinquency involving a violent
felony.
(f) In the case of a person who knowingly violates section 922(p) [18 USCS § 922(p)], such person shall be fined under this title,
or imprisoned not more than 5 years, or both.
(g) Whoever, with the intent to engage in conduct which—
(1) constitutes an offense listed in section 1961(1) [18 USCS § 1961(1)],
(2) is punishable under the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import and Export Act
(21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§ 70501 et seq.],
(3) violates any State law relating to any controlled substance (as defined in section 102(6) of the Controlled Substances Act (21
U.S.C. 802(6))), or
(4) constitutes a crime of violence (as defined in subsection (c)(3)),
travels from any State or foreign country into any other State and acquires, transfers, or attempts to acquire or transfer, a firearm
in such other State in furtherance of such purpose, shall be imprisoned not more than 10 years, fined in accordance with this title,
or both.
(h) Whoever knowingly transfers a firearm, knowing that such firearm will be used to commit a crime of violence (as defined in
subsection (c)(3)) or drug trafficking crime (as defined in subsection (c)(2)) shall be imprisoned not more than 10 years, fined in
accordance with this title, or both.
(i)
(1) A person who knowingly violates section 922(u) [18 USCS § 922(u)] shall be fined under this title, imprisoned not more than
10 years, or both.
(2) Nothing contained in this subsection shall be construed as indicating an intent on the part of Congress to occupy the field in
which provisions of this subsection operate to the exclusion of State laws on the same subject matter, nor shall any provision of
this subsection be construed as invalidating any provision of State law unless such provision is inconsistent with any of the
purposes of this subsection.
(j) A person who, in the course of a violation of subsection (c), causes the death of a person through the use of a firearm, shall—
(1) if the killing is a murder (as defined in section 1111 [18 USCS § 1111]), be punished by death or by imprisonment for any
term of years or for life; and
(2) if the killing is manslaughter (as defined in section 1112 [18 USCS § 1112]), be punished as provided in that section.
(k) A person who, with intent to engage in or to promote conduct that—
(1) is punishable under the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import and Export Act
(21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§ 70501 et seq.];
(2) violates any law of a State relating to any controlled substance (as defined in section 102 of the Controlled Substances
Act, 21 U.S.C. 802); or
(3) constitutes a crime of violence (as defined in subsection (c)(3)),
smuggles or knowingly brings into the United States a firearm, or attempts to do so, shall be imprisoned not more than 10 years,
fined under this title, or both.

25

(l) A person who steals any firearm which is moving as, or is a part of, or which has moved in, interstate or foreign commerce
shall be imprisoned for not more than 10 years, fined under this title, or both.
(m) A person who steals any firearm from a licensed importer, licensed manufacturer, licensed dealer, or licensed collector shall
be fined under this title, imprisoned not more than 10 years, or both.
(n) A person who, with the intent to engage in conduct that constitutes a violation of section 922(a)(1)(A) [18 USCS § 922(a)(1)
(A)], travels from any State or foreign country into any other State and acquires, or attempts to acquire, a firearm in such other
State in furtherance of such purpose shall be imprisoned for not more than 10 years.
(o) A person who conspires to commit an offense under subsection (c) shall be imprisoned for not more than 20 years, fined
under this title, or both; and if the firearm is a machinegun or destructive device, or is equipped with a firearm silencer or
muffler, shall be imprisoned for any term of years or life.
(p) Penalties relating to secure gun storage or safety device.
(1) In general.
(A) Suspension or revocation of license; civil penalties. With respect to each violation of section 922(z)(1) [18 USCS § 922(z)
(1)] by a licensed manufacturer, licensed importer, or licensed dealer, the Secretary may, after notice and opportunity for hearing
—
(i) suspend for not more than 6 months, or revoke, the license issued to the licensee under this chapter [18 USCS §§ 921 et seq.]
that was used to conduct the firearms transfer; or
(ii) subject the licensee to a civil penalty in an amount equal to not more than $2,500.
(B) Review. An action of the Secretary under this paragraph may be reviewed only as provided under section 923(f) [18 USCS §
923(f)].
(2) Administrative remedies. The suspension or revocation of a license or the imposition of a civil penalty under paragraph (1)
shall not preclude any administrative remedy that is otherwise available to the Secretary.

History
HISTORY:

Added June 19, 1968, P. L. 90-351, Title IV, § 902, 82 Stat. 233; Oct. 22, 1968, P. L. 90-618, Title I, § 102, 82 Stat. 1223; Jan. 2,
1971, P. L. 91-644, Title II, § 13, 84 Stat. 1890); Oct. 12, 1984, P. L. 98-473, Title II, Ch II, § 223(a), Ch X, Part D, § 1005, 98
Stat. 2038, 2138; May 19, 1986, P. L. 99-308, § 104(a), 100 Stat. 456; Oct. 27, 1986, P. L. 99-570, Title I, Subtitle I, § 1402, 100
Stat. 3207-39; Nov. 11, 1988, P. L. 100-649, § 2(b), 102 Stat. 3817; Nov. 18, 1988, P. L. 100-690, Title VI, Subtitle G, § 6211,
Subtitle N, §§ 6451, 6460, 6462, Title VII, Subtitle B, §§ 7056, 7060(a), 102 Stat. 4361, 4371, 4373, 4374, 4402, 4403; Nov. 29,
1990, P. L. 101-647, Title XI § 1101, Title XVII, § 1702(b)(3), Title XXII, §§ 2203(d), 2204(c), Title XXXV, §§ 3526-3529, 104
Stat. 4829, 4845, 4857, 4924; Nov. 30, 1993, P. L. 103-159, Title I, § 102(c), Title III, § 302(d), 107 Stat. 1541, 1545; Sept. 13,
1994, P. L. 103-322, Title VI, § 60013, Title XI, Subtitle A, §§ 110102(c), 110103(c), Subtitle B, § 110201(b), Subtitle D, §
110401(e), Subtitle E, §§ 110503, 110504(a), 110507, 110510, 110515(a), 110517, 110518, Title XXXIII, §§ 330002(h),
330003(f)(2), 330011(i), (j), 330016(1)(H), (K), (L), 108 Stat. 1973, 1998, 1999, 2011, 2015, 2016, 2018–2020, 2140, 2141,
2145, 2147; Oct. 11, 1996, P. L. 104-294, Title VI, § 603(m)(1), (n), (o), (p)(1), (q)–(s), 110 Stat. 3505; Nov. 13, 1998, P. L. 105386, § 1(a), 112 Stat. 3469; Nov. 2, 2002, P. L. 107-273, Div B, Title IV, § 4002(d)(1)(E), Div C, Title I, Subtitle A, § 11009(e)
(3), 116 Stat. 1809, 1821; Dec. 9, 2003, P. L. 108-174, § 1(2), (3), 117 Stat. 2481; Oct. 26, 2005, P. L. 109-92, §§ 5(c)(2),

26

6(b), 119 Stat. 2100, 2102; Oct. 6, 2006, P. L. 109-304, § 17(d)(3), 120 Stat. 1707; Dec. 21, 2018, P. L. 115-391, Title IV, §
403(a), 132 Stat. 5221, 5222.

27

18 USCS § 1951, Part 1 of 2
Copy Citation

Current through Public Law 116-91, approved December 19, 2019.
United States Code Service TITLE 18. CRIMES AND CRIMINAL PROCEDURE (§§ 1 — 6005)
(Chs. 1 — 123) CHAPTER 95. Racketeering (§§ 1951 — 1960)

Part I. Crimes

§ 1951. Interference with commerce by threats or violence
(a) Whoever in any way or degree obstructs, delays, or affects commerce or the movement of any article or commodity in
commerce, by robbery or extortion or attempts or conspires so to do, or commits or threatens physical violence to any person or
property in furtherance of a plan or purpose to do anything in violation of this section shall be fined under this title or imprisoned
not more than twenty years, or both.
(b) As used in this section—
(1) The term “robbery” means the unlawful taking or obtaining of personal property from the person or in the presence of
another, against his will, by means of actual or threatened force, or violence, or fear of injury, immediate or future, to his person
or property, or property in his custody or possession, or the person or property of a relative or member of his family or of anyone
in his company at the time of the taking or obtaining.
(2) The term “extortion” means the obtaining of property from another, with his consent, induced by wrongful use of actual or
threatened force, violence, or fear, or under color of official right.
(3) The term “commerce” means commerce within the District of Columbia, or any Territory or Possession of the United States;
all commerce between any point in a State, Territory, Possession, or the District of Columbia and any point outside thereof; all
commerce between points within the same State through any place outside such State; and all other commerce over which the
United States has jurisdiction.
(c) This section shall not be construed to repeal, modify or affect section 17 of Title 15 [15 USCS § 17], sections 52, 101–115,
151–166 of Title 29 or sections 151–188 of Title 45 [45 USCS §§ 151–188].

28

